HHS/OIG-Audit--"Administration of Emergency Flood Grants for the Midwestern Flood of 1993, (A-07-94-00821)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Administration of Emergency Flood Grants for the Midwestern Flood of
1993," (A-07-94-00821)
April 15, 1996
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This review was made to determine whether grants totaling $8.2 million provided
relief to flood victims in accordance with guidelines established by a Midwest
Flood Health and Medical Task Force. Our final report points out that awards
totaling $4.2 million were not granted for purposes consistent with Task Force
guidelines. Two grantees whose clinics were undamaged by the flood received
funds for new construction and acquisition of facilities that would not be operational
until years after the disaster. One grantee received funds to provide primary
health care services, however, no services were provided for nearly one year
after the grant award was made. We recommended that the Health Resources and
Services Administration (HRSA) review the justification used to fund these awards,
and if the justification is not consistent with legislative intent of the emergency
appropriation, other appropriate funding should be sought for these projects
and the flood funds returned to the Treasury. We also recommended that HRSA
develop procedures for objectively evaluating applications against established
criteria. The HRSA generally concurred with our recommendations.